Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




GUIDANCE AND STANDARDS ON
LANGUAGE ACCESS SERVICES:
     MEDICARE PLANS




                   Daniel R. Levinson
                    Inspector General

                      July 2010
                    OEI-05-10-00051
   E X E C U T I V E                                 S U M M A R Y


                  OBJECTIVES
                  1. To determine the extent to which Medicare plans conducted the
                  four-factor assessment recommended by the Office for Civil Rights’
                  (OCR) guidance when determining what language access services to
                  offer.

                  2. To determine the extent to which Medicare plans offered language
                  access services consistent with the Office of Minority Health’s (OMH)
                  Culturally and Linguistically Appropriate Services in Health Care
                  (CLAS) standards on language access services.
                  3. To determine the extent to which Medicare plans realized benefits,
                  including savings, and encountered obstacles to providing language
                  access services.

                  4. To describe costs of providing language access services.


                  BACKGROUND
                  The Medicare Improvements for Patients and Providers Act of 2008
                  (MIPPA) requires that the Office of Inspector General (OIG) conduct a
                  study examining Medicare provider and plan compliance with (1) OCR’s
                  Guidance to Federal Financial Assistance Recipients Regarding Title VI
                  Prohibition Against National Origin Discrimination Affecting Limited
                  English Proficient Persons (hereinafter referred to as OCR guidance)
                  and (2) OMH’s CLAS standards. The MIPPA also requires that OIG
                  describe the costs or savings related to the provision of language access
                  services.

                  Because OCR guidance and CLAS standards are not mandatory, OIG
                  assessed Medicare plans’ voluntary compliance as indicated by the
                  extent to which Medicare plans conducted the four-factor assessment
                  recommended by OCR guidance and offered language access services
                  consistent with CLAS standards. A companion report, Guidance and
                  Standards on Language Access Services: Medicare Providers
                  (OEI-05-10-00050), provides the same assessment for Medicare
                  providers.

                  The Centers for Medicare & Medicaid Services (CMS) contracts with
                  private companies to provide health insurance plans under Medicare
                  Advantage, stand-alone prescription drug plans under Part D
                  (hereinafter referred to collectively as plans), or both. Plans typically
                  administer benefits by contracting with direct service providers, such as

OEI-05-10-00051   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PLANS   i
E X E C U T I V E                   S U          M M A R Y


                   hospitals, nursing homes, and pharmacies. Thus, most of plans’ direct
                   contact with beneficiaries is through call centers and marketing
                   materials.

                   OCR guidance and CLAS standards address the provision of language
                   access services. OCR guidance recommends that plans conduct a
                   four-factor assessment to help determine what language access services
                   to offer. These factors are (1) the number or proportion of Limited
                   English Proficient (LEP) persons eligible to be served or likely to be
                   encountered in the provider’s service population; (2) the frequency with
                   which LEP persons come in contact with the provider; (3) the
                   importance, nature, and urgency of the program, activity, or service to
                   people’s lives; and (4) the resources available to the provider and costs
                   for offering language access services.

                   OMH’s CLAS standards can help plans become responsive to the
                   cultural and linguistic needs of diverse populations. Four of the
                   fourteen CLAS standards focus on the provision of language access
                   services. These standards are (1) providing language access services
                   during all business hours, (2) providing verbal offers and written notices
                   of the right to language access services, (3) assuring the competence of
                   language assistance provided by staff, and (4) providing written
                   materials and signage translated into appropriate languages.

                   Language access services are designed to promote effective
                   communication between LEP persons and non-LEP persons. LEP
                   persons do not speak English as their primary language and have a
                   limited ability to read, write, speak, or understand English. Language
                   access services can include oral interpretation and written translation.

                   To conduct this review, we administered a survey in 2009 to
                   139 randomly selected plans operating in counties with a high
                   percentage of LEP persons.


                   FINDINGS
                   Eighty-eight percent of plans conducted the four-factor assessment
                   recommended by OCR guidance when determining what language
                   access services to offer. Eighty-eight percent of plans conducted all
                   four factors of the recommended assessment. The remaining plans
                   considered three of the factors. The percentages of plans that completed
                   each of the individual factors ranged between 94 percent and
                   100 percent.


 OEI-05-10-00051   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS   ii
E X E C U T I V E                   S U          M M A R Y


                   Sixty-seven percent of plans offered services consistent with all
                   four CLAS standards on language access services. Although all
                   plans reported offering some language access services, only 67 percent
                   of plans offered services consistent with all four CLAS standards on
                   language access services. The percentages of plans that offered services
                   consistent with each of the individual standards ranged between
                   71 percent and 99 percent. Plans were least likely to inform LEP
                   persons both verbally and in writing of their right to receive language
                   access services.
                   Only 49 percent of plans reported benefits to providing language
                   access services and 57 percent reported obstacles. The most
                   frequently reported benefit was improved communication with LEP
                   persons. The three most frequently reported obstacles included the
                   costs of providing language access services, identifying LEP persons,
                   and lack of staffing for providing language access services.
                   Although 79 percent of plans reported data on the costs of providing
                   language access services, these data were not comparable. Of the
                   135 plans that responded to the survey, 106 reported cost data.
                   However, plans’ comments about how they calculated costs indicated
                   different approaches to calculating costs. Because of these differences,
                   we were unable to make determinations about costs of language access
                   services.


                   RECOMMENDATION
                   The MIPPA requires OIG to make recommendations on improving
                   compliance with and enforcement of CLAS standards. However, in
                   keeping with our assessment of voluntary compliance, we make a
                   recommendation to increase the percentage of plans that voluntarily
                   offer services consistent with all four CLAS standards on language
                   access services.

                   We recommend that:
                      OMH collaborate with CMS to inform plans that they should
                       notify LEP persons both verbally and in writing of their right to
                       receive language access services.




 OEI-05-10-00051   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS   iii
E X E C U T I V E                   S U          M M A R Y



                   AGENCIES’ COMMENTS AND OFFICE OF INSPECTOR
                   GENERAL RESPONSE
                   OMH and CMS both concurred with our recommendation. OMH stated
                   that it will work closely with CMS to inform plans that they should
                   inform LEP persons both verbally and in writing of their rights to
                   receive language access services. CMS reiterated its goal to provide
                   clear, accurate, and timely information about language access services.




 OEI-05-10-00051   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS   iv
   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
                    Eighty-eight percent of plans conducted the four-factor
                    assessment recommended by OCR guidance when determining
                    what language access services to offer . . . . . . . . . . . . . . . . . . . . . . 14

                    Sixty-seven percent of plans offered services consistent with all
                    four CLAS standards on language access services . . . . . . . . . . . . 16

                    Only 49 percent of plans reported benefits to providing language
                    access services and 57 percent reported obstacles . . . . . . . . . . . . . 19

                    Although 79 percent of plans reported data on the costs of
                    providing language access services, these data were not
                    comparable . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
                    Agencies’ Comments and Office of Inspector General Response . . 23


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
                    A: Section 187 of the Medicare Improvements for Patients and
                       Providers Act of 2008 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

                    B: Culturally and Linguistically Appropriate Services in Health
                       Care Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

                    C: Categories of Responses to Key Survey Questions. . . . . . . . . . 27

                    D: Estimates and Confidence Intervals. . . . . . . . . . . . . . . . . . . . . 29

                    E: Supplemental Analysis Table . . . . . . . . . . . . . . . . . . . . . . . . . . 34

                    F: Agencies’ Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
   I N T R O D U C T I O N


                  OBJECTIVES
                  1. To determine the extent to which Medicare plans conducted the
                  four-factor assessment recommended by the Office for Civil Rights’
                  (OCR) guidance when determining what language access services to
                  offer.

                  2. To determine the extent to which Medicare plans offered language
                  access services consistent with the Office of Minority Health’s (OMH)
                  Culturally and Linguistically Appropriate Services in Health Care
                  (CLAS) standards on language access services.
                  3. To determine the extent to which Medicare plans realized benefits,
                  including savings, and encountered obstacles to providing language
                  access services.

                  4. To describe costs of providing language access services.


                  BACKGROUND
                  The Medicare Improvements for Patients and Providers Act of 2008
                  (MIPPA) requires that the Office of Inspector General (OIG) conduct a
                  study examining Medicare provider and plan compliance with (1) OCR’s
                  Guidance to Federal Financial Assistance Recipients Regarding Title VI
                  Prohibition Against National Origin Discrimination Affecting Limited
                  English Proficient Persons (hereinafter referred to as OCR guidance)
                  and (2) OMH’s CLAS standards. 1 The MIPPA also requires that OIG
                  describe the costs or savings related to the provision of language access
                  services. Pursuant to the MIPPA, OIG must issue a report that
                  provides recommendations for improving compliance with and
                  enforcement of CLAS standards. 2 For relevant text of the MIPPA, see
                  Appendix A.

                  Because OCR guidance and CLAS standards are not mandatory, OIG
                  could not assess compliance or make recommendations on the
                  enforcement of CLAS standards. Instead, OIG assessed Medicare plans’
                  voluntary compliance, as indicated by the extent to which plans




                     1 Although the OCR guidance was signed by the then-Director of OCR, it was issued on
                  behalf of the Secretary of Health & Human Services (HHS) and applies to all entities
                  receiving funds from HHS.
                    2 P.L. 110-275 § 187 (July 15, 2008), 42 U.S.C. § 1395cc note.




OEI-05-10-00051   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS       1
I N T R O D        U C T       I O N


                    conducted the four-factor assessment recommended by OCR guidance
                    and offered language access services consistent with CLAS standards.

                    This report is one of two reports issued in response to the MIPPA
                    provision. A companion report, Guidance and Standards on Language
                    Access Services: Medicare Providers (OEI-05-10-00050), focuses on
                    Medicare providers, such as hospitals and nursing homes, which
                    directly supply heath care services to beneficiaries.
                    Medicare Plans
                    The Centers for Medicare & Medicaid Services (CMS) contracts with
                    private companies to provide health insurance plans under Medicare
                    Advantage, stand-alone prescription drug plans under Part D
                    (hereinafter referred to collectively as plans), or both. Private
                    companies may choose to provide both Medicare Advantage and
                    stand-alone prescription drug plans. As of February 2010, more than
                    29 million Medicare beneficiaries were enrolled in Medicare Advantage
                    and stand-alone prescription drug plans. 3
                    Plans receive a monthly prospective payment from CMS to cover their
                    estimated costs for providing services to Medicare beneficiaries. In
                    calculating these payments, CMS allows plans to report all of their
                    administrative costs to operate plans. 4 According to CMS staff,
                    administrative costs include such things as translating marketing
                    materials and operating call centers. 5
                    Plans have limited direct contact with beneficiaries. These plans
                    typically administer benefits by contracting with direct service
                    providers, such as hospitals, nursing homes, and pharmacies. Thus,
                    most of plans’ direct contact with beneficiaries is through call centers
                    and marketing materials.
                    Language Access Services for Limited English Proficient Persons
                    Language access services are designed to promote effective
                    communication between Limited English Proficient (LEP) persons and

                      3 CMS, Medicare Advantage, Cost, PACE, Demo, and Prescription Drug Medicare Plan
                    Contract Report - Monthly Summary Report, March 2010. Accessed at
                    http://www.cms.hhs.gov on March 31, 2010.
                      4 CMS, Instructions for Completing the Medicare Advantage Bid Pricing Tool and the
                    Medical Savings Account Bid Pricing Tool for Contract Year 2010, Pub. No. 10142.
                    Accessed at http://www.cms.hhs.gov on February 17, 2010.
                      5 Medicare plans must operate call centers that Medicare beneficiaries can contact to
                    speak with a customer service representative to answer questions concerning, for example,
                    enrollment, benefits, costs, or coverage.



 OEI-05-10-00051    GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS         2
I N T R O D        U C T       I O N


                    non-LEP persons. 6 LEP persons do not speak English as their primary
                    language and have a limited ability to read, write, speak, or understand
                    English. 7 According to the U.S. Census Bureau, approximately
                    18 percent of the U.S. population in 2000 spoke languages other than
                    English at home. Further, 8 percent of the U.S. population, or
                    approximately 21 million people, spoke English less than “very well.” 8
                    Language access services may include oral interpretation; written
                    translation; and other provisions that enhance communication, such as
                    translated signage. 9 In providing oral interpretation plans may choose,
                    for example, to hire bilingual staff, to contract with interpreters, or to
                    use telephone interpreter lines. When providing written translation, for
                    example, plans may translate marketing materials or benefit
                    explanation materials.

                    The lack of language access services enables language barriers to
                    persist between LEP persons and non-LEP staff at plans, which can
                    lead to problems for LEP persons. Congressional testimony suggests
                    that LEP beneficiaries have had problems with plan call centers
                    resulting from language barriers. 10 Problems included failure to
                    connect LEP persons to interpreters or interpreters who were not
                    knowledgeable or able to answer questions. 11
                    Title VI of the Civil Rights Act
                    Title VI of the Civil Rights Act of 1964, as amended, provides that no
                    person in the United States shall “on the ground of race, color, or
                    national origin, be excluded from participation in, be denied the benefits
                    of, or be subjected to discrimination under any program or activity
                    receiving Federal financial assistance.” 12 The Supreme Court has


                      6 OMH, A Patient-Centered Guide to Implementing Language Access Services in
                    Healthcare Organizations, p. 1. Accessed at http://minorityhealth.hhs.gov on
                    January 15, 2010.
                      7 OCR, Guidance, pt. IV, 68 Fed. Reg. 47311, 47313 (Aug. 8, 2003). Accessed at
                    http://www.hhs.gov/ocr on October 21, 2009.
                      8 U.S. Census Bureau, Profile of Selected Social Characteristics: 2000. Accessed at
                    http://factfinder.census.gov on January 15, 2010.
                      9 OMH, Patient-Centered Guide, loc. cit.
                      10 California Health Advocates, Medicare  Part D: Implementation of the New Drug
                    Benefit, written testimony before the U.S. House of Representatives, Committee on Energy
                    and Commerce, Hearing by the Subcommittee on Health, March 1, 2006. Accessed at
                    http://www.cahealthadvocates.org on March 2, 2010.
                      11 Ibid.
                      12 P.L. 88-352 § 601; 42 U.S.C. § 2000d.




 OEI-05-10-00051    GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS     3
I N T R O D        U C T       I O N


                    interpreted the Title VI implementing regulation to find that conduct
                    with a disproportionate effect on LEP persons had a discriminatory
                    impact on the basis of national origin. 13
                    OCR Oversight of Title VI Compliance
                    OCR is the civil rights law enforcement agency for HHS. As such, it
                    ensures that all recipients of Federal financial assistance through HHS,
                    including plans, operate their programs in compliance with Federal civil
                    rights laws. Federal financial assistance includes grants, training, use
                    of equipment, donation of surplus property, and other assistance. 14
                    OCR enforces compliance with Title VI by investigating complaints of
                    discrimination. According to OCR staff, of the 17 complaints
                    concerning LEP persons received in fiscal year (FY) 2009, 1 complaint
                    involved plans. If OCR investigates and determines that discrimination
                    has occurred, a plan usually has 60 days to correct the violation or
                    provide OCR with a plan of correction. 15 OCR staff stated that they
                    strive for voluntary compliance and resolution in all cases, as required
                    by Title VI. Accordingly, complaints are often voluntarily resolved
                    through an exchange of letters containing requirements for
                    improvement.
                    OCR Guidance for Determining What Language Access Services To Offer
                    In August 2000, OCR, on behalf of the Secretary of HHS, issued
                    guidance specifically concerning discrimination affecting LEP persons. 16
                    The guidance was issued in response to an August 2000 Executive
                    Order requiring Federal agencies to clarify and publish guidance on
                    Title VI requirements. 17 The original guidance was republished in
                    February 2002, seeking public comment. 18 In 2003, after receiving
                    public comments and subsequent guidance from the U.S. Department of
                    Justice, OCR issued revised guidance. 19




                      13 Lau v. Nichols. 414 U.S. 563 (1974).
                      14 45 CFR § 80, App. A.; 45 CFR § 80.2.
                      15 OCR,   How Does OCR Investigate a Civil Rights Complaint? Accessed at
                    http://www.hhs.gov/ocr on February 25, 2010.
                      16 65 Fed. Reg. 52762 (Aug. 30, 2000).
                      17 Executive Order 13166, Improving Access               to Services for Persons with Limited English
                    Proficiency, 65 Fed. Reg. 50121 (Aug. 16, 2000).
                      18 67 Fed. Reg. 4968 (Feb. 1, 2002).
                      19 OCR, Guidance, introduction at 47311.




 OEI-05-10-00051    GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS                  4
I N T R O D        U C T       I O N


                    OCR guidance is meant to assist recipients of HHS financial assistance,
                    including plans, in ensuring meaningful access for LEP persons to
                    critical services while not imposing an undue burden. OCR guidance
                    does not carry the force of law and is not mandatory. 20
                    OCR guidance recommends that each recipient of HHS financial
                    assistance determine what language access services to offer by
                    conducting a four-factor assessment. The four factors are: 21
                        (1) the number or proportion of LEP persons eligible to be served or
                            likely to be encountered in the recipient’s service population;

                        (2) the frequency with which LEP persons come in contact with the
                            recipient;

                        (3) the importance, nature, and urgency of the program, activity, or
                            service to people’s lives; and

                        (4) the resources available to the recipient and costs for offering
                            language access services.

                    After conducting the four-factor assessment, recipients have discretion
                    to determine what language access services to offer. In some cases,
                    offering language acccess services may not be necessary to comply with
                    Title VI. 22 However, this discretion does not diminish, and should not
                    be used to minimize, recipients’ obligation to address the needs of LEP
                    persons. 23
                    OMH’s CLAS Standards
                    In 2001, OMH created the CLAS standards to provide consistent and
                    comprehensive guidance to promote cultural and linguistic competence
                    in health care. As is OCR guidance, the CLAS standards are not
                    mandatory. 24
                    OMH divided the standards into three categories: Culturally
                    Competent Care (standards 1–3), Language Access Services
                    (standards 4–7), and Organizational Supports for Cultural Competence



                      20OCR,    Guidance, pt. III at 47313, footnote 2.
                      21 Ibid., pt. V at 47314.
                      22 Ibid.
                      23 Ibid.
                      24 According to OMH officials, the four Language Access Services standards are not
                    mandatory despite language stating that they are Federal requirements and that health
                    care organizations “must” provide the services noted in each of the four standards.



 OEI-05-10-00051    GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS     5
I N T R O D        U C T       I O N


                    (standards 8–14). 25 For a list of all 14 CLAS standards, see Appendix
                    B.

                    The four Language Access Services standards are: 26
                    Standard 4. Health care organizations must offer and provide language
                                assistance services, including bilingual staff and
                                interpreter services, at no cost to each patient/consumer
                                with limited English proficiency at all points of contact, in
                                a timely manner during all hours of operation.

                    Standard 5. Health care organizations must provide to
                                patients/consumers in their preferred language both verbal
                                offers and written notices informing them of their right to
                                receive language assistance services.

                    Standard 6. Health care organizations must assure the competence of
                                language assistance provided to limited English proficient
                                patients/consumers by interpreters and bilingual staff.
                                Family and friends should not be used to provide
                                interpretation services (except on request by the
                                patient/consumer).

                    Standard 7. Health care organizations must make available easily
                                understood patient-related materials and post signage in
                                the languages of the commonly encountered groups and/or
                                groups represented in the service area.

                    OMH staff offer training and educational resources related to CLAS
                    standards to plans through its Center for Cultural and Linguistic
                    Competence in Health Care (the Center). 27 Established in FY 1995, the
                    Center was OMH’s response to the Disadvantaged Minority Health
                    Improvement Act of 1990 and encouragement from Congress to
                    establish a center to develop and evaluate models, conduct research,
                    and provide technical assistance to providers on removing language
                    barriers to health care services. 28


                      25 OMH, National Standards for Culturally and Linguistically Appropriate Services in
                    Health Care: Final Report, p. 3. Accessed at http://minorityhealth.hhs.gov on
                    January 15, 2010.
                      26 Ibid., pp. 1013.
                      27 OMH, About the            Center for Cultural and Linguistic Competence in Health Care.
                    Accessed at http://minorityhealth.hhs.gov/ on March 8, 2010.
                      28 H.R. Rep. No. 103-553 at 54 (1994).




 OEI-05-10-00051    GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS            6
I N T R O D        U C T       I O N


                    Through the Center, OMH offers training and educational resources
                    related to the provision of language access services. This includes
                    accredited training programs for physicians, nurses, and disaster
                    personnel on cultural competency through e-learning programs. OMH
                    also publishes A Patient-Centered Guide to Implementing Language
                    Access Services in Healthcare Organizations, which was designed to
                    help health care administrators and organizations comply with Title VI
                    and implement the CLAS standards. 29 In addition, OMH distributes an
                    e-newsletter that is geared toward all persons interested in cultural
                    competency in health care settings.
                    CMS Guidance Supporting Language Access Services
                    CMS has published marketing guidelines establishing that plans must
                    provide interpretation and translation services to LEP persons. 30
                    Although OCR guidance allows discretion when determining what
                    language access services to offer, CMS requires plans to offer at least
                    some language access services.

                    Three of CMS’s marketing guidelines correspond closely to CLAS
                    Standards 4 and 7 and partially to CLAS Standard 5. Specifically, CMS
                    guidelines state that plans’ call centers must accommodate LEP persons
                    and provide service to LEP persons during business hours. 31, 32 CMS
                    guidelines also state that plans should make marketing materials, such
                    as promotional, enrollment, and benefit materials, available in any
                    language that is the primary language of more than 10 percent of a
                    plan’s service area. 33 In 2009, CMS began making LEP population
                    information available for plans when a particular LEP population
                    exceeded the 10-percent threshold. 34 Finally, CMS guidelines state that
                    plans must disclose on all required explanatory marketing materials
                    that the document is available in alternative languages. 35


                      29 OMH,  A Patient-Centered Guide to Implementing Language Access Services in
                    Healthcare Organizations. Accessed at http://www.thinkculturalhealth.org on
                    February 1, 2010.
                      30 CMS, Medicare Manual, Pub. 100-16, ch. 3, interpreting 42 CFR §§ 422.2264(e),
                    423.2264(e), and 423.128(d)(1).
                      31 Ibid., § 30.7.
                      32 Ibid., § 80.1.
                      33 Ibid., § 30.7.
                      34 CMS, New Marketing Material Language Lookup Functionality in HPMS,
                    September 28, 2009. Accessed at http://www.cms.hhs.gov on March 1, 2010.
                      35 CMS allows an exception to this disclosure for identification cards. CMS,        Medicare
                    Managed Care Manual, Pub. 100-16, ch. 3, § 50.5.8.



 OEI-05-10-00051    GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS              7
I N T R O D        U C T         I O N


                    In 2008, CMS informed plans of concerns that ineffective processes may
                    have been preventing LEP persons from receiving the language access
                    services covered by CMS’s marketing guidelines. 36 CMS distributed a
                    memorandum to all plans listing best practices that plans could
                    implement to better serve LEP persons. For example, CMS
                    recommended that if plans use an interactive voice response system,
                    they should ensure that callers who do not choose an option by pressing
                    a number or speaking a word will automatically be connected with a
                    person who can access interpretation services. In this memorandum,
                    CMS cited OCR guidance as a useful tool for developing language access
                    services for LEP persons. 37


                    METHODOLOGY
                    To conduct this review, we collected information through a survey of
                    randomly selected plans operating in 2009 in counties with a high
                    percentage of LEP persons. OCR, OMH, and CMS staff provided
                    additional context through structured interviews.
                    Scope
                    The MIPPA mandates that OIG report on plans’ and providers’
                    compliance with OCR guidance and CLAS standards. However, because
                    CLAS standards are not mandatory, HHS lacks authority to enforce
                    them. Therefore, we assessed plans’ voluntary compliance as indicated
                    by the extent to which they conducted the four-factor assessment
                    recommended by OCR guidance and offered language access services
                    consistent with CLAS standards. This study focused on CLAS
                    standards 4–7, which OMH designated as the Language Access Services
                    standards.

                    This study focused on plans that were located in counties with a high
                    percentage of LEP persons to increase the likelihood that sampled plans
                    needed to offer language access services. Medicare providers are
                    covered in a companion report.

                    Finally, we broadened the definition of costs and savings to include
                    nonfinancial obstacles and benefits.



                      36 CMS, Best practices for addressing the needs of non-English speaking and limited
                    English proficient (LEP) beneficiaries, January 2, 2008. Accessed at
                    http://www.cms.hhs.gov on February 17, 2010.
                      37 Ibid.




 OEI-05-10-00051    GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS     8
I N T R O D        U C T       I O N


                    Sample
                    Plan sampling frame. We created a sampling frame of plans operating in
                    counties with a high percentage of LEP persons. To do this, we used
                    2000 decennial Census data and 2009 enrollment data from CMS. 38
                    First, we used the Census data to rank counties by the percentage of
                    residents who answered anything other than “very well” when asked
                    how well they speak English. We selected the 10 percent of counties
                    with the highest percentage of these LEP persons. Together, the
                    313 selected counties, representing 37 States, contained 72 percent of
                    LEP persons residing in the United States. These LEP persons
                    represented between 9 percent and 51 percent of all residents in each of
                    the selected counties. Then, we used the CMS enrollment data to
                    identify the plans offered in the selected counties. We identified
                    5,611 plans in the sampling frame.
                    Sample selection. After creating the sampling frame of 5,611 plans, we
                    selected a simple random sample of 145 plans. 39 After selecting the
                    sample, we excluded five plans because of ongoing OIG investigations
                    and one additional plan because we discovered that it did not operate in
                    2009. The final sample consisted of 139 plans.
                    Data Collection
                    Survey. We emailed the survey to the sample of 139 plans in
                    December 2009. We made three followup attempts by telephone. Data
                    collection lasted through January 2010. Of the 139 plans,
                    135 responded to the survey, for an overall response rate of 97 percent.
                    However, plans did not always answer every question; therefore, item
                    response rates may be lower. No item response rate was less than
                    88 percent.

                    In the cases in which a health care organization operated multiple plans
                    in the sample and offered the same language access services, we allowed
                    the health care organization to submit one survey for all of its plans.
                    Then, we recorded the responses individually for each associated plan.
                    Twenty-four health care organizations, representing 107 of the sampled



                      38 The U.S. Census Bureau’s 2000 decennial Census has the most recent data on all
                    counties for the same year.
                      39 This sample design enabled us to estimate the percentage of plans with certain
                    characteristics with +/- 10-percent precision at the 95-percent confidence level assuming a
                    75-percent response rate and assuming that 7 percent would be excluded because of ongoing
                    OIG investigations.



 OEI-05-10-00051    GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS      9
I N T R O D         U C T       I O N


                     plans, submitted surveys in this manner. An additional 28 plans
                     responded individually.

                     Structured interviews. In January 2010, we conducted separate
                     structured interviews with OCR and OMH staff to obtain background
                     information. We interviewed OCR staff about their role and activities
                     related to Title VI enforcement, OCR guidance, and the types of
                     technical assistance OCR provided for language access services. We
                     interviewed OMH staff about their activities related to CLAS standards.

                     In addition, to obtain background information about CMS’s guidelines
                     for plans related to the provision of language access services, we
                     interviewed CMS staff. We interviewed CMS staff in January 2010.
                     Data Analysis
                     To analyze plans’ survey responses, we calculated response category
                     frequencies for the key questions related to whether plans conducted
                     the four-factor assessment recommended by OCR guidance and whether
                     plans offered language access services consistent with all four CLAS
                     standards on language access services. We also analyzed the
                     percentage of plans that completed each individual factor of the
                     four-factor assessment and offered language access services consistent
                     with each of the four CLAS standards.

                     We considered a plan to have conducted the four-factor assessment if
                     the plan indicated at least one activity corresponding to each of the four
                     factors. Table 1 lists each of the four factors and the corresponding
                     survey question. See Appendix C for the categories of responses to each
                     question.




  OEI-05-10-00051    GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS   10
I N T R O D        U C T       I O N


                    Table 1: OCR Four Factors and Corresponding Survey
                    Questions

                     Four Factors in OCR Guidance                                       Corresponding Question in Survey of Plans


                     Factor 1: The number or proportion of LEP                  Which of the following sources of information does your
                     persons eligible to be served or likely to be              plan use to determine the number or proportion of LEP
                     encountered in the recipient’s service                       persons from each language group represented in its
                     population                                                                               geographic service area?

                     Factor 2: The frequency with which LEP                     Which of the following sources of information does your
                     persons come in contact with the recipient                 plan use to track how often it encounters LEP persons?

                                                                                    When determining whether to communicate to LEP
                     Factor 3: The importance, nature, and
                                                                                   persons in their preferred language, does your plan
                     urgency of the program, activity, or service
                                                                                   consider the importance and urgency of the activity,
                     to people’s lives
                                                                                                 program, or service to people’s lives?


                     Factor 4: The resources available to the
                                                                                  How does your plan assess whether it has resources
                     recipient and costs for offering language
                                                                                      available to provide language access services?
                     access services

                    Source: OCR guidance and OIG survey of plans, 2010.


                    Similarly, we considered a plan to have offered language access services
                    consistent with CLAS standards if it indicated activities meeting each of
                    the four standards. For Standards 4, 6, and 7, we considered a plan to
                    have offered language access services consistent with the standards if it
                    indicated at least one activity corresponding to the standards. For
                    Standard 5, plans needed to indicate at least two activities—one
                    associated with verbal notification of rights and another associated with
                    written notification. Table 2 lists the four CLAS standards on language
                    access services and the corresponding survey question. See Appendix C
                    for the categories of responses to each question.




 OEI-05-10-00051    GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS                    11
I N T R O D        U C T       I O N


                    Table 2: CLAS Standards and Corresponding Survey Questions


                                                                                             Corresponding Question in Survey of
                     CLAS Standards on Language Access Services
                                                                                                                          Plans


                     Standard 4: Health care organizations must offer and
                     provide language assistance services, including bilingual
                                                                                                  During what percentage of your plan’s
                     staff and interpreter services, at no cost to each
                                                                                                   business hours are language access
                     patient/consumer with limited English proficiency at all
                                                                                                                      services offered?
                     points of contact, in a timely manner during all hours of
                     operation.


                     Standard 5: Health care organizations must provide to                 Does your plan inform LEP persons of their
                     patients/consumers in their preferred language both                  right to receive language access services in
                     verbal offers and written notices informing them of their                    their preferred language in any of the
                     right to receive language assistance services.                                                     following ways?


                     Standard 6: Health care organizations must assure the
                     competence of language assistance provided to limited
                                                                                           Which of the following training topics does
                     English proficient patients/consumers by interpreters
                                                                                               your organization require for staff and
                     and bilingual staff. Family and friends should not be
                                                                                                                          contractors?
                     used to provide interpretation services (except on
                     request by the patient/consumer).

                     Standard 7: Health care organizations must make
                     available easily understood patient-related materials and             Which of the following written materials are
                     post signage in the languages of the commonly                         translated into the languages of commonly
                     encountered groups and/or groups represented in the                                          encountered groups?
                     service area.

                    Source: CLAS standards and OIG survey of plans, 2010.


                    We did not ask plans about posting signs in languages of the commonly
                    encountered groups for Standard 7, as we determined that signs were
                    not applicable to plans.

                    We used the results of the response category frequencies for the CLAS
                    standards to determine whether any standards were completed more or
                    less frequently than any other standard. We used the Bonferroni
                    method of multiple comparisons to determine whether any noted
                    differences were statistically significant. A difference was statistically
                    significant if the confidence interval of the difference did not contain
                    zero using an alpha of 0.01.
                    Where possible, we calculated frequencies and ranges on the key
                    questions related to costs, savings, nonfinancial obstacles, and benefits.
                    We also reviewed plans’ comments about how they calculated cost data
                    to determine the extent to which reported costs were comparable.

                    Unless noted, we projected survey statistics to all 5,611 plans operating
                    in the 313 counties with a high percentage of LEP persons. See


 OEI-05-10-00051    GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS                    12
I N T R O D        U C T       I O N


                    Appendix D for a list of 95-percent confidence intervals for all statistical
                    projections.
                    Data Limitations
                    This report relies on self-reported data. We did not verify plans’
                    responses.

                    Because populations may shift, the 2000 decennial Census data may not
                    exactly reflect the counties with the highest percentage of LEP persons
                    in 2009, when the sample was selected. However, they were the most
                    recent data available for all counties in the same year.
                    Standards
                    This study was conducted in accordance with the Quality Standards for
                    Inspections approved by the Council of the Inspectors General on
                    Integrity and Efficiency.




 OEI-05-10-00051    GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS   13
      F I N D I N G S

  Eighty-eight percent of plans conducted the             Eighty-eight percent of plans in
four-factor assessment recommended by OCR                 counties with a high percentage of
                                                          LEP persons considered all four
   guidance when determining what language
                                                          factors of the recommended
                      access services to offer
                                                          assessment. The remaining
                     12 percent of plans considered three of the four factors. As noted
                     previously, OCR guidance is not mandatory. Rather, it is guidance that
                     plans may use to ensure meaningful access for LEP persons to critical
                     services.
                     Table 3 lists the four factors and the percentage of plans that reported
                     considering each factor.
                     Table 3: OCR Four Factors and Percentage of Plans
                     Considering Each Factor
                                                                                                           Percentage
                      Four Factors in OCR Guidance
                                                                                                              of Plans

                      Factor 1: The number or proportion of LEP persons eligible to be
                                                                                                                 94%
                      served or likely to be encountered in the recipient’s service population

                      Factor 2: The frequency with which LEP persons come in contact with
                                                                                                                 99%
                      the recipient

                      Factor 3: The importance, nature, and urgency of the program, activity,
                                                                                                                 96%
                      or service to people’s lives

                      Factor 4: The resources available to the recipient and costs for offering
                                                                                                                100%
                      language access services

                     Source: OCR guidance and OIG analysis of plan survey responses, 2010.


                     Ninety-four percent of plans reported determining the number or proportion
                     of LEP persons in their service areas
                     Corresponding to the first factor in OCR guidance, 94 percent of plans
                     reported determining the number or proportion of LEP persons
                     represented in their geographic service areas. The greater the number
                     or proportion of LEP persons, the greater the likelihood that language
                     access services are needed.

                     Plans determined the number or proportion of LEP persons represented
                     in their geographic service areas primarily from two sources.
                     Eighty-one percent of plans reported that they used Census data and
                     64 percent reported that they collected data from plan members.




   OEI-05-10-00051   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS                 14
F   I N D I N G        S


                      Ninety-nine percent of plans reported determining the frequency of contact
                      with LEP persons
                      Corresponding to the second factor in OCR guidance, 99 percent of plans
                      reported determining the frequency with which they encountered LEP
                      persons. The more frequent the contact with a particular language
                      group, the more likely that language access services in that language
                      are needed.

                      Plans reported collecting data on encounters with LEP persons
                      primarily from two sources. Seventy-nine percent of plans reported
                      using data collected from their call centers and 66 percent reported
                      using data collected from plan member databases. Forty-nine percent of
                      plans reported that they used both sources.
                      Ninety-six percent of plans reported considering the situation when
                      determining what language access services to provide or reported offering
                      services in all situations
                      Ninety-six percent of plans reported activities that correspond to the
                      third factor in OCR guidance for determining the importance of
                      language access services. This factor recommends that plans determine
                      whether denial or delay of services or information because of a lack of
                      language access services could have serious implications for LEP
                      persons. To that end, 18 percent of plans reported assessing the
                      importance and urgency of their programs, activities, and services. An
                      additional 78 percent reported offering language access services in all
                      types of situations regardless of importance and urgency, in which case
                      determining the importance and urgency is no longer necessary.
                      All plans reported assessing the available resources
                      Corresponding to the fourth factor in OCR guidance, all plans reported
                      assessing available financial, material, and staff resources when
                      determining what language access services to offer. Plans may use
                      information about available resources to help them balance costs and
                      benefits when deciding what language access services to offer.
                      Specifically, 94 percent of plans reported assessing the availability of
                      bilingual staff, 79 percent reported assessing the availability of
                      technology for providing language access services, and 47 percent
                      reported assessing the financial resources available to them. 40




                        40 Choices are not mutually exclusive.




    OEI-05-10-00051   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS   15
F    I N D I N G        S



    Sixty-seven percent of plans offered services            All plans operating in counties
      consistent with all four CLAS standards on             with a high percentage of LEP
                                                             persons reported offering some
                       language access services
                                                             language access services by either
                       translating documents or providing interpreter services. However, only
                       67 percent offered language access services consistent with all four of
                       OMH’s CLAS standards on language access services. As noted
                       previously, CLAS standards are not mandatory. Rather, they are a
                       resource that plans can use when developing their language access
                       services.
                       In addition to offering language access services directly, 79 percent of
                       plans reported offering language access services or financial assistance
                       to their contracted providers. Further, 48 percent of plans reported
                       requiring their contracted providers to offer language access services to
                       their patients. See Table E-1 in Appendix E for a list of the assistance
                       that plans reported offering to their contracted providers.

                       Plans were least likely to offer language access services consistent with
                       CLAS Standard 5, which recommends that patients be informed of their
                       rights both verbally and in writing. 41 See Table 4 for the four CLAS
                       standards on language access services and the percentage of plans that
                       reported offering services consistent with each standard.




                         41 The difference is statistically different from other standards at the 95-percent
                       confidence level in a multiple comparison test using a Bonferroni threshold of 0.01.



     OEI-05-10-00051   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS     16
F   I N D I N G        S


                      Table 4: CLAS Standards and Percentage of Plans Offering
                      Services Consistent With Each Standard
                                                                                                            Percentage of
                       CLAS Standards on Language Access Services
                                                                                                                    Plans


                       Standard 4: Provide language assistance services at no cost to each patient
                       with limited English proficiency at all points of contact, in a timely manner                 94%
                       during all hours of operation.


                       Standard 5: Provide to patients in their preferred language both verbal offers
                       and written notices informing them of their right to receive language                         71%
                       assistance services.


                       Standard 6: Assure the competence of language assistance provided.
                       Family and friends should not be used to provide interpretation services                      99%
                       (except on request by the patient).


                       Standard 7: Make available easily understood patient-related materials and
                       post signage in the languages of the commonly encountered groups                              94%
                       represented in the service area.

                      Source: CLAS standards and OIG analysis of plan survey responses, 2010.


                      Ninety-four percent of plans reported offering language access services
                      during all business hours
                      Consistent with CLAS Standard 4, 94 percent of plans reported offering
                      some type of language access services during all hours of operation. The
                      6 percent of plans that did not offer language access services during all
                      hours of operation reported offering language access services during
                      more than half of their business hours.

                      However, there is evidence that beneficiaries have difficulty accessing
                      the language access services that plans provide through call centers.
                      For example, one study found that only 69 percent of LEP persons
                      calling plans could reach someone who spoke their primary language
                      and were often unable to access translated documents from the plans. 42
                      This indicates that while plans may have language access services
                      available, they may not be providing these services to all of the
                      beneficiaries who need them.




                        42 National Senior Citizen Law Center,    “Please Hold” Medicare plans leave limited
                      English proficient beneficiaries waiting for access, December 2008. Accessed at
                      http://www.nsclc.org on February 17, 2010.



    OEI-05-10-00051   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS            17
F   I N D I N G        S


                      Seventy-one percent of plans reported informing LEP persons both verbally
                      and in writing of their right to receive language access services
                      Consistent with CLAS Standard 5, 71 percent of plans reported
                      informing LEP persons verbally and in writing of their right to receive
                      language access services. Plans reported informing beneficiaries of
                      language access services mostly in writing during the enrollment
                      process. Specifically, 96 percent of plans reported informing LEP
                      persons through enrollment materials or plan benefit materials, and
                      86 percent reported informing LEP persons through other marketing
                      materials. However, only 71 percent of plans reported verbally
                      informing LEP persons during the enrollment process. 43 In addition,
                      the enrollment process typically occurs annually, which means LEP
                      persons may not be informed of their right to receive language access
                      services at each encounter with plans.
                      Ninety-nine percent of plans reported requiring training for staff and
                      contractors on language access services
                      Consistent with CLAS Standard 6, 99 percent of plans reported
                      requiring training for staff and contractors on language access services.
                      Specifically, 96 percent of plans reported requiring training for staff or
                      contractors on responding to LEP persons, 90 percent on language
                      access policies and procedures, 73 percent on cultural competency, and
                      56 percent on language skills. 44
                      Although most plans reported requiring training for staff and
                      contractors about language access services, only 57 percent reported
                      formally testing them on their skills and competencies in providing
                      language access services. CLAS Standard 6 mentions formal testing as
                      a way to assure the competence of language assistance provided by
                      staff. Only 41 percent of plans reported either testing staff or
                      contractors on their ability to interpret effectively or testing them on
                      their language proficiency. See Table 5 for a list of the topics plans
                      reported covering on formal tests.




                        43 Choices are not mutually exclusive.
                        44 Choices are not mutually exclusive.




    OEI-05-10-00051   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS   18
F    I N D I N G       S


                      Table 5: Testing Topics for Staff and Contractors
                       Testing Topics*                                                                      Percentage of Plans

                       Confidentiality requirements                                                                        57%

                       Plan’s policies and procedures                                                                      55%

                       Medical terminology                                                                                 42%

                       Ability to interpret effectively                                                                    41%

                       Proficiency in English and non-English languages                                                    41%
                       *Choices are not mutually exclusive.
                      Source: OIG analysis of plan survey responses, 2010.

                      Ninety-four percent of plans reported translating materials into the
                      languages of commonly encountered groups
                      Consistent with CLAS Standard 7, 94 percent of plans reported
                      translating written materials into the languages of commonly
                      encountered groups. Plans reported translating a variety of materials.
                      Eighty-seven percent of plans reported translating enrollment
                      applications, 83 percent reported translating marketing materials, and
                      78 percent reported translating plan benefit materials. 45



    Only 49 percent of plans reported benefits to           Although all plans reported
        providing language access services and              offering some language access
                                                            services, only 49 percent reported
                  57 percent reported obstacles
                                                            that providing language access
                      services resulted in any benefits. The two most frequently reported
                      benefits were related to communication. 46 Specifically, 46 percent of
                      plans reported improvements in communication with beneficiaries and
                      10 percent reported improvements in communication between providers
                      and their patients.
                      Only 1 percent of plans reported saving money by offering language
                      access services. Twenty-eight percent of plans reported that they did
                      not save money by providing language access services and 70 percent
                      reported that they did not know whether they saved money. 47




                        45 Choices are not mutually exclusive.
                        46 Choices are not mutually exclusive.
                        47 Percentages do not add to 100 percent because of rounding.




    OEI-05-10-00051   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS                  19
F   I N D I N G        S


                      Fifty-seven percent of plans reported obstacles to providing language
                      access services
                      Fifty-seven percent of plans reported obstacles to providing language
                      access services, including the costs of providing language access
                      services, difficulties in identifying LEP persons, and a lack of staffing.
                      See Table 6 for a list of obstacles that plans reported.
                      Table 6: Obstacles Reported by Plans
                       Obstacles*                                                                           Percentage of Plans

                       Costs                                                                                               41%

                       Lack of means for staff to identify LEP persons                                                     22%

                       Lack of staffing                                                                                    20%

                       Broad range of languages spoken in the community                                                    19%

                       Staff discomfort in providing language services                                                     19%

                       Lack of training resources for staff                                                                11%

                       Liability concerns                                                                                  10%
                       *Choices are not mutually exclusive.
                      Source: OIG analysis of plan survey responses, 2010.

                      The cost of providing language access services was the most frequently
                      reported obstacle, cited by 41 percent of plans. In addition, 30 percent
                      of plans reporting obstacles reported costs as the only obstacle. As
                      previously noted, plans may include the costs of providing language
                      access services in their administrative expenses that are subsidized by
                      CMS.

                      A majority of plans indicated that they would like help in overcoming
                      obstacles to providing language access services. In fact, 52 percent of
                      plans reported that it would be useful to have additional assistance in
                      implementing these services. In responding to the survey, these plans
                      suggested specific areas for assistance. There were three general
                      requests: that HHS (1) translate model documents to ensure the
                      accuracy of documents and reduce costs for plans; (2) offer staff training
                      and testing assistance, which would include providing materials and
                      covering plan responsibilities, information on the LEP populations, and
                      best practices; and (3) provide financial assistance for language access
                      services, for both training staff and direct interpretation and translation
                      services.




    OEI-05-10-00051   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS                  20
 F   I N D I N G        S



Although 79 percent of plans reported data on              Of the 135 plans that responded to
      the costs of providing language access               the survey, 106 reported data on the
                                                           costs of providing language access
    services, these data were not comparable
                                                           services. For example, a small
                       regional plan reported $407 in language access services expenditures in
                       FY 2008, at $0.29 per LEP enrollee. On the other hand, a large national
                       plan reported $3.7 million in language access services expenditures in
                       FY 2008, at $52.78 per LEP enrollee.
                       Plans’ comments about how they calculated cost data indicated that the
                       wide range of costs might be the result of different approaches to
                       calculating costs, rather than a reflection of varying levels of service.
                       Some health care organizations that offer several plans indicated that
                       they could report cost data only at the organizational level and not at
                       the plan level. Others could report only on the total cost of a contract
                       with a vendor and not the parts of the contract specific to language
                       access services, and some plans could only estimate costs. Because of
                       these differences in reporting, we were unable to make any
                       determinations about costs of language access services.




     OEI-05-10-00051   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS   21
R   E C O        M M E N D A T                    I O N            S
       R E C O M M E N D A T I O N

                      Eighty-eight percent of plans in counties with a high percentage of LEP
                      persons conducted the four-factor assessment recommended by OCR
                      guidance when determining what language access services to offer.
                      However, only 67 percent of plans offered services consistent with all
                      four CLAS standards on language access services, largely because many
                      did not inform LEP persons verbally of their right to language access
                      services.

                      OMH created the CLAS standards to guide plans to become more
                      responsive to the cultural and linguistic needs of diverse populations.
                      Providing language access services is crucial to ensuring access to
                      high-quality health care for LEP persons. Clear communication
                      between LEP persons and plans can lead to better health outcomes for
                      LEP persons.

                      The MIPPA requires OIG to make recommendations on improving
                      compliance with and enforcement of CLAS standards. However, in
                      keeping with our assessment of voluntary compliance, we make a
                      recommendation to increase the percentage of plans that voluntarily
                      offer services consistent with all four CLAS standards on language
                      access services.

                      We recommend that:
                      OMH collaborate with CMS to inform plans that they should notify LEP
                      persons both verbally and in writing of their right to receive language
                      access services
                      More than one in four plans reported that they do not verbally inform
                      LEP persons of their right to receive language access services. OMH
                      should collaborate with CMS, as well as work with professional
                      associations, to inform plans that they should notify LEP persons of
                      their rights in writing and verbally. CMS has an established
                      infrastructure for communicating with plans. OMH and CMS could use
                      this infrastructure to encourage plans to inform LEP persons of their
                      rights to language access services not only in writing during enrollment,
                      but verbally every time LEP persons contact plans.

                      This joint effort could suggest ways in which plans could increase verbal
                      notification of language access services at call centers. To help ensure
                      that language access services are provided to those who need them,
                      OMH and CMS could suggest that plans ensure that (1) call center staff
                      are trained to identify LEP persons; (2) LEP persons are transferred
                      from call centers to interpreter services; and (3) callers are
                      automatically transferred to interpreter services in cases in which an

    OEI-05-10-00051   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS   22
R   E C O        M M E N D A T                    I O N


                      automated response is required and none is selected, as this may
                      indicate that callers do not understand the automatic prompts.


                      AGENCIES’ COMMENTS AND OFFICE OF INSPECTOR
                      GENERAL RESPONSE
                      OMH and CMS both concurred with our recommendation. OMH stated
                      that it will work closely with CMS to inform plans that they should
                      inform LEP persons both verbally and in writing of their rights to
                      receive language access services. CMS reiterated its goal to provide
                      clear, accurate, and timely information about language access services.
                      For the full text of the agencies’ comments, see Appendix F.




    OEI-05-10-00051   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS   23
   A P P E N D I X ~ A

                  Section 187 of the Medicare Improvements for Patients and
                  Providers Act of 2008


                  SEC. 187. OFFICE OF THE INSPECTOR GENERAL REPORT ON
                  COMPLIANCE WITH AND ENFORCEMENT OF NATIONAL
                  STANDARDS ON CULTURALLY AND LINGUISTICALLY
                  APPROPRIATE SERVICES (CLAS) IN MEDICARE.

                  (a) REPORT.–Not later than two years after the date of the enactment
                  of this Act, the Inspector General of the Department of Health and
                  Human Services shall prepare and publish a report on–
                        (1) the extent to which Medicare providers and plans are
                        complying with the Office for Civil Rights’ Guidance to Federal
                        Financial Assistance Recipients Regarding Title VI Prohibition
                        Against National Origin Discrimination Affecting Limited English
                        Proficient Persons and the Office of Minority Health’s Culturally
                        and Linguistically Appropriate Services Standards in health care;
                        and

                        (2) a description of the costs associated with or savings related to
                        the provision of language services. Such report shall include
                        recommendations on improving compliance with CLAS Standards
                        and recommendations on improving enforcement of CLAS
                        Standards.

                  (b) IMPLEMENTATION.–Not later than one year after the date of
                  publication of the report under subsection (a), the Department of Health
                  and Human Services shall implement changes responsive to any
                  deficiencies identified in the report.




OEI-05-10-00051   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS   24
   A P P E N D I X                          ~             B

                  Culturally and Linguistically Appropriate Services in Health Care
                  Standards 48


                  Standard 1. Health care organizations should ensure that
                  patients/consumers receive from all staff members effective,
                  understandable, and respectful care that is provided in a manner
                  compatible with their cultural health beliefs and practices and preferred
                  language.
                  Standard 2. Health care organizations should implement strategies to
                  recruit, retain, and promote at all levels of the organization a diverse
                  staff and leadership that are representative of the demographic
                  characteristics of the service area.
                  Standard 3. Health care organizations should ensure that staff at all
                  levels and across all disciplines receive ongoing education and training
                  in culturally and linguistically appropriate service delivery.
                  Standard 4. Health care organizations must offer and provide language
                  assistance services, including bilingual staff and interpreter services, at
                  no cost to each patient/consumer with limited English proficiency at all
                  points of contact, in a timely manner during all hours of operation.
                  Standard 5. Health care organizations must provide to
                  patients/consumers in their preferred language both verbal offers and
                  written notices informing them of their right to receive language
                  assistance services.
                  Standard 6. Health care organizations must assure the competence of
                  language assistance provided to limited English proficient
                  patients/consumers by interpreters and bilingual staff. Family and
                  friends should not be used to provide interpretation services (except on
                  request by the patient/consumer).
                  Standard 7. Health care organizations must make available easily
                  understood patient-related materials and post signage in the languages
                  of the commonly encountered groups and/or groups represented in the
                  service area.




                    48 Office of Minority Health,National Standards on Culturally and Linguistically
                  Appropriate Services in Health Care (CLAS), March 2001. Accessed at
                  http://minorityhealth.hhs.gov on February 12, 2010.



OEI-05-10-00051   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS   25
A   P   P E N D       I X        ~          B


                      Standard 8. Health care organizations should develop, implement, and
                      promote a written strategic plan that outlines clear goals, policies,
                      operational plans, and management accountability/oversight
                      mechanisms to provide culturally and linguistically appropriate
                      services.
                      Standard 9. Health care organizations should conduct initial and
                      ongoing organizational self-assessments of CLAS-related activities and
                      are encouraged to integrate cultural and linguistic competence-related
                      measures into their internal audits, performance improvement
                      programs, patient satisfaction assessments, and outcomes-based
                      evaluations.
                      Standard 10. Health care organizations should ensure that data on the
                      individual patient’s/consumer’s race, ethnicity, and spoken and written
                      language are collected in health records, integrated into the
                      organization’s management information systems, and periodically
                      updated.
                      Standard 11. Health care organizations should maintain a current
                      demographic, cultural, and epidemiological profile of the community as
                      well as a needs assessment to accurately plan for and implement
                      services that respond to the cultural and linguistic characteristics of the
                      service area.
                      Standard 12. Health care organizations should develop participatory,
                      collaborative partnerships with communities and utilize a variety of
                      formal and informal mechanisms to facilitate community and
                      patient/consumer involvement in designing and implementing
                      CLAS-related activities.
                      Standard 13. Health care organizations should ensure that conflict and
                      grievance resolution processes are culturally and linguistically sensitive
                      and capable of identifying, preventing, and resolving cross-cultural
                      conflicts or complaints by patients/consumers.
                      Standard 14. Health care organizations are encouraged to regularly
                      make available to the public information about their progress and
                      successful innovations in implementing the CLAS standards and to
                      provide public notice in their communities about the availability of this
                      information.




    OEI-05-10-00051   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS   26
         A P P E N D I X                          ~             C

                        Categories of Responses to Key Survey Questions
Office for Civil Rights (OCR) Factor 1 Question: Which of the following sources of information
does your plan use to determine the number or proportion of Limited English Proficient (LEP)
persons from each language group represented in its geographic service area?

     a)   Census data
     b)   Collection of language data from plan members
     c)   Community assessment conducted by a community organization
     d)   Community assessment conducted by your organization
     e)   County or State health status reports
     f)   Medicare data
     g)   Other (please specify)

OCR Factor 2 Question: Which of the following sources of information does your plan use to
track how often it encounters LEP persons?

     a)   Call center data
     b)   Claims records
     c)   Plan member database
     d)   Other (please specify)

OCR Factor 3 Question: When determining whether to communicate with LEP persons in their
preferred language, does your plan consider the importance and urgency of the activity,
program, or service to people’s lives?

     a) We provide language access services in all situations.
     b) We consider the importance and urgency of the situation when determining what
        language access services to provide.

OCR Factor 4 Question: How does your organization assess whether it has resources available
to provide language access services?

     a)   Assess availability of bilingual staff
     b)   Assess available technology
     c)   Determine whether outside funding is available
     d)   Examine operating funds to determine whether money is available
     e)   Review available community resources
     f)   Other (please specify)




      OEI-05-10-00051   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS   27
   A    P   P E N D      I X         ~          C


Culturally and Linguistically Appropriate Services in Health Care (CLAS) Standard 4 Question:
During what percentage of your plan’s business hours are language access services offered?

       a)   All (100%)
       b)   More than 50% but less than 100%
       c)   Less than or equal to 50%
       d)   Plan does not offer language access services

CLAS Standard 5 Question: Does your organization inform LEP persons of their right to receive
language access services in their preferred language in any of the following ways?

       a)   Given copies of language access rights materials in their preferred language
       b)   In enrollment materials
       c)   In marketing materials
       d)   In plan benefit materials
       e)   Told verbally during application process
       f)   Other (please specify)

CLAS Standard 6 Question: Which of the following training topics does your plan require for
staff and contractors?

       a) Cultural competence
       b) Demographic data of communities served
       c) How to collect data on primary language from LEP persons
       d) How to respond to people who do not speak English
       e) Information related to written policies and procedures regarding language access
          services
       f) Language skills
       g) Use of “I Speak” cards or other communication aids
       h) Use of family members or friends as interpreters
       i) Use of minor children as interpreters

CLAS Standard 7 Question: Which of the following written materials are translated into the
languages of commonly encountered groups?

       a)   Application materials
       b)   Educational materials
       c)   Marketing materials
       d)   Notice of language access services
       e)   Plan benefit materials
       f)   Promotional materials
       g)   Wellness materials
       h)   Other (please specify)

       OEI-05-10-00051    GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS   28
             A P P E N D I X ~ D

                                    Estimates and Confidence Intervals
Table D-1: Estimates of Survey Responses

                                                                                              Sample            Point              95-Percent
Estimate Description
                                                                                                Size         Estimate      Confidence Interval



Percentage of plans that conducted the four-factor assessment
recommended by Office for Civil Rights (OCR) guidance when                                        135               88.1         82.6%–93.7%
determining what language access services to offer


Percentage of plans that completed three of the four OCR factors                                  135               11.9           6.3%–17.4%


Percentage of plans that reported determining the number or proportion
of Limited English Proficient (LEP) persons they are eligible to serve or                         135               94.1         90.0%–98.1%
likely to encounter in their geographic service areas (OCR Factor 1)


Percentage of plans that reported determining the frequency of contact
                                                                                                  135               98.5         94.8%–99.8%
with LEP persons (OCR Factor 2)


Percentage of plans that reported considering the situation when
determining what language access services to provide or reported                                  135               95.6         92.0%–99.1%
offering services in all situations (OCR Factor 3)


Percentage of plans that reported assessing the available resources for
                                                                                                  135              100.0         97.3%–100%*
offering language access services (OCR Factor 4)


Percentage of plans that reported they used Census data to determine
the number or proportion of LEP persons represented in their                                      135               80.7         74.0%–87.5%
geographic service areas



Percentage of plans that reported the collected data from plan members
to determine the number or proportion of LEP persons represented in                               135               64.4         56.3%–72.6%
their geographic service areas


Percentage of plans that reported using data collected from call centers
                                                                                                  135               78.5         71.5%–85.5%
to determine the frequency of contact with LEP persons

Percentage of plans that reported using data collected from plan
member databases to determine the frequency of contact with LEP                                   135               65.9         57.8%–74.0%
persons
*Confidence interval calculated with an exact method based on the binomial distribution.

                                                                                                                           continued on next page




        OEI-05-10-00051             GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS                    29
    A    P    P E N D             I X          ~          D


Table D-1: Estimates of Survey Responses, continued

                                                                                              Sample            Point              95-Percent
Estimate Description
                                                                                                Size         Estimate      Confidence Interval



Percentage of plans that reported using data both from call centers and
from plan member databases when determining the frequency of                                      135               48.9         40.3%–57.4%
contact with LEP persons


Percentage of plans that reported assessing the importance of their
                                                                                                  135               17.8         11.2%–24.3%
program activities and services


Percentage of plans that reported offering language access services in
                                                                                                  135               77.8         70.7%–84.9%
all types of situations regardless of importance and urgency


Percentage of plans that reported assessing the availability of bilingual
                                                                                                  135               94.1         90.0%–98.1%
staff for providing language access services


Percentage of plans that reported assessing the availability of
                                                                                                  135               78.5         71.5%–85.5%
technology for providing language access services


Percentage of plans that reported assessing the financial resources
available to them when determining whether to provide language access                             135               47.4         38.9%–55.9%
services



Percentage of plans that offered language access services consistent
with the four selected Culturally and Linguistically Appropriate Services                         135               66.7         58.6%–74.7%
in Health Care (CLAS) standards


Percentage of plans that reported offering some language access
                                                                                                  135              100.0         97.3%–100%*
services


Percentage of plans that reported offering language access services
                                                                                                  135               79.3         72.3%–86.2%
and financial assistance to providers


Percentage of plans that reported requiring providers to offer language
                                                                                                  135               48.1         39.6%–56.7%
services to their patients


Percentage of plans that reported offering language access services
                                                                                                  135               94.1         90.0%–98.1%
during all business hours (CLAS Standard 4)


Percentage of plans that reported informing LEP persons both verbally
and in writing of their right to receive language access services (CLAS                           135               71.1         63.4%–78.9%
Standard 5)

*Confidence interval calculated with an exact method based on the binomial distribution.

                                                                                                                           continued on next page




        OEI-05-10-00051             GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS                    30
    A    P    P E N D             I X          ~          D


Table D-1: Estimates of Survey Responses, continued

                                                                                              Sample            Point              95-Percent
Estimate Description
                                                                                                Size         Estimate      Confidence Interval


Percentage of plans that reported requiring training for staff and
                                                                                                  135               99.3        95.9%–99.9%*
contractors on language access services (CLAS Standard 6)


Percentage of plans that reported translating materials in the languages
                                                                                                  135               94.1         90.0%–98.1%
of commonly encountered groups (CLAS Standard 7)


Percentage of plans that reported offering language access services
                                                                                                  135                5.9           1.9%–10.0%
during more than half of their business hours


Percentage of plans that reported informing LEP persons of their right to
                                                                                                  135               96.3         93.1%–99.5%
receive language access services in enrollment materials


Percentage of plans that reported informing LEP persons of their right to
                                                                                                  135               95.6         92.0%–99.1%
receive language access services in plan benefit materials


Percentage of plans that reported informing LEP persons of their right to
                                                                                                  135               85.9         80.0%–91.9%
receive language access services in other marketing materials


Percentage of plans that reported informing LEP persons of their right to
receive language access services verbally during the enrollment                                   135               71.1         63.4%–78.9%
process


Percentage of plans that reported training staff or contractors on
                                                                                                  135               96.3         93.1%–99.5%
responding to LEP persons


Percentage of plans that reported training staff or contractors on
                                                                                                  135               89.6         84.4%–94.8%
language access policies and procedures


Percentage of plans that reported training staff or contractors on cultural
                                                                                                  135               72.6         65.0%–80.2%
competency


Percentage of plans that reported training staff or contractors on
                                                                                                  135               55.6         47.1%–64.0%
language skills

Percentage of plans that reported formally testing the skills and
competency of staff and contractors in providing language access                                  135               57.0         48.6%–65.5%
services

Percentage of plans that reported testing staff and contractors on their
                                                                                                  135               41.5         33.1%–49.9%
ability to interpret effectively

*Confidence interval calculated with an exact method based on the binomial distribution.

                                                                                                                           continued on next page




        OEI-05-10-00051             GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS                    31
    A    P    P E N D             I X          ~          D


Table D-1: Estimates of Survey Responses, continued

                                                                                              Sample            Point              95-Percent
Estimate Description
                                                                                                Size         Estimate      Confidence Interval


Percentage of plans that reported testing staff and contractors on their
                                                                                                  135               40.7         32.3%–49.1%
proficiency in English and non-English languages


Percentage of plans that reported testing staff and contractors on
                                                                                                  135               57.0         48.6%–65.5%
knowledge of confidentiality requirements


Percentage of plans that reported testing staff and contractors on
                                                                                                  135               54.8         46.3%–63.3%
knowledge of plans’ policies and procedures


Percentage of plans that reported testing staff and contractors on
                                                                                                  135               42.2         33.8%–50.7%
knowledge of medical terminology


Percentage of plans that reported translating enrollment applications
                                                                                                  135               86.7         80.9%–92.5%
into the languages of commonly encountered groups


Percentage of plans that reported translating marketing materials                                 135               83.0         76.5%–89.4%

Percentage of plans that reported translating plan benefit materials                              135               77.8         70.7%–84.9%


Percentage of plans that reported benefits to providing language access
                                                                                                  135               48.9         40.3%–57.4%
services


Percentage of plans that reported obstacles to providing language
                                                                                                  123               56.9         48.0%–65.8%
access services


Percentage of plans that reported improved communication with
                                                                                                  135               45.9         37.4%–54.4%
Medicare beneficiaries by offering language access services


Percentage of plans that reported improved communication between
                                                                                                  135               10.4           5.2%–15.6%
providers and their patients by offering language access services


Percentage of plans that reported saving money by providing language
                                                                                                  135                1.5          0.18%–5.3%*
access services


Percentage of plans that reported that they did not save money by
                                                                                                  135               28.1         20.5%–35.8%
providing language access services


Percentage of plans that reported that they did not know whether they
                                                                                                  135               69.6         61.8%–77.5%
saved money by providing language access services

*Confidence interval calculated with an exact method based on the binomial distribution.
                                                                                                                           continued on next page




        OEI-05-10-00051             GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS                    32
    A    P    P E N D             I X         ~          D


Table D-1: Estimates of Survey Responses, continued

                                                                                             Sample            Point              95-Percent
Estimate Description
                                                                                               Size         Estimate      Confidence Interval


Percentage of plans that reported cost as an obstacle to providing
                                                                                                 123               41.5         32.6%–50.3%
language access services


Percentage of plans that reported a lack of means for staff to identify
                                                                                                 123               22.0         14.5%–29.4%
LEP persons as an obstacle


Percentage of plans that reported being understaffed as an obstacle                              123               20.3         13.1%–27.5%


Percentage of plans that reported the broad range of languages spoken
                                                                                                 123               18.7         11.7%–25.7%
in the community as an obstacle


Percentage of plans that reported staff discomfort in providing language
                                                                                                 123               18.7         11.7%–25.7%
access services as an obstacle


Percentage of plans that reported a lack of training resources for staff as
                                                                                                 123               10.6          5.1%–16.1%
an obstacle


Percentage of plans that reported liability concerns as an obstacle                              123                9.8          4.4%–15.1%

Percentage of plans that reported cost as their only obstacle                                     70               30.0         19.0%–41.0%


Percentage of plans that indicated that it would be useful to have
                                                                                                 128               52.3         43.6%–61.1%
additional assistance in implementing language access services


Percentage of plans that reported financial data on language access
                                                                                                 135               78.5         71.5%–85.5%
services

Source: Office of Inspector General analysis of plan survey responses, 2010.




        OEI-05-10-00051            GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS                  33
                A P P E N D I X ~ E

                                                  Supplemental Analysis Table

Table E-1: Assistance Plans Reported Offering to Providers

                                                                                                 Sample    Percentage of              95-Percent
Ways Plans Reported Giving Assistance to Providers*
                                                                                                   Size            Plans      Confidence Interval


Provide access to interpreters                                                                       135               58.5         50.1%–66.9%

Provide education materials                                                                          135               45.2         36.7%–53.7%

Translate materials for distribution to patients                                                     135               37.8         29.5%–46.1%

Train providers and their staffs on communicating with LEP persons                                   135               17.8         11.2%–24.3%

Provide financial assistance for language access services                                            135                8.9          4.0%–13.8%

*Choices are not mutually exclusive.
Source: Office of Inspector General analysis of plan survey responses, 2010.




        OEI-05-10-00051                GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS                  34
       A P PEN D                       x          F


    Agencies' Comments




         (J
         ""A         DEPARTMENT OF REALTII AND HUMAN SERVICES                                          Office of the Secretary
                                                                                                       Office of Public Health and Science

                                                                                                       Office of Minority Health
                                                                                                       Washington, D.C. 20201

                  DATE:            May 26, 2010

                  TO:              Dan iel R. Levinson
                                   Inspector General

                                          /S/
                  FROM: 	          Gal(lh N. Grahaln, M.D., M.P.H.
                                   Deputy Assistant Secretary for Minority Health
                                   Office of Minority Health
                                   Office of the Secretary

                  SUBJECT: 	       OIG Draft RepOlis: Guidance and Standards on
                                   Language Access Services: Medicare Plans, OEI-OS-1 0-00051

                  Thank you for the opportunity to revicw and respond to the OIG draft report. We appreciate
                  OIG's efforts to examine the extent Medicare Plans are fulfilling the requirements of
                  (I) OCR's Guidance to Federal Financial Assistance Recipients Regarding Title VI Prohibition
                  Against National Origin Discrimination Affecting Limited English Proficient Persons (OCR
                  guidance) and (2) OMB's CLAS standards.

                  Based on our review of the report, our responses will only focus on those areas that apply to the
                  CLAS Standards.

                  OIG Recommendation: Medicare Plans: OEl-OS-10-00051

                        • 	 OMH should inform Medicare plans that they should notify LEP persons both
                            verbally and in writing of their right to receive language access services.

                                   OMH should collaborate with CMS, as well as work with professional
                                   associations, to inform Medicare plans that they should notify LEP persons of
                                   their rights in writing and verbally. CMS has an established infrastructure for
                                   communicating with Medicare plans. OMH and CMS .could use this
                                   infrastructure to encourage Medicare plans to inform LEI' persons of their rights
                                   to language access services not only in writing during enrollment, but verbally
                                   every time LEP persons contact Medicare plans.

                                   Th is joint effort could suggest ways in which Medicare plans could increase
                                   verbal notification of language access services at call centers. To help ensure that
                                   lrulguage access services are provided to those who need them, OMH and CMS
                                   could suggest that Medicare plans ensure that (I) call center staff are trained to
                                   identify LEP persons; (2) LEP persons are transferred from call centers to
                                   interpreter services; and (3) callers are automatically transferred to an interpreter
                                   service in cases in which an automated response is required and none is selected,
                                   as this may indicate that the caller does not understand the automatic prompts.

                  OMH concurs with OIG's recommendations. The OMH will work closely with eMS to
                  implement the specific recommendations as outlined in the OIG draft repmi to inform LEP
                  persons both verbally and in writing of their rights to receive language access services.




                                                         U.S. Public Health Service
                                                          ..                                                  ..




OEI·05·10·00051     GUIDANCE AND STANDARDS ON LANGUAGE ACCESS SERVICES:                 MEDICARE PLANS                              35
A P PEN            D        x              F




                       DEPARTMENT OF HEALTH & HUMAN SERVICES                                  Centers for Medicare & Medicaid Services


                                                                                              Office of the Administrator'
                                                                                              Washington. DC 20201




                   DATE: 	        MAY 2 0 2010
                   TO: 	          Daniel R. Levinson
                                  Inspector General

                   FROM: 	        Marilyn Tavenner /S/
                                  Acting Administrator and Chief Operating Officer

                   SUBJECT: 	 Office ofInspector Gerieral (01 G) Draft Report: "Guidance.and Standards on
                              Language Access Services: Medicare Plans" (OEI-05-10-000Sl)


                   Thank you for the opportunity to review and comment on the Office ofinspector General (OIG)
                   draft report entitled: "Guidance and Standards on Language Access Services: Medicare Plans"
                   (OEI·OS·IO-00051)

                   In this draft correspondence, the GIG (1) determined the extent to which Medicare plans
                   conducted the four factor assessment recommended by the Office for Civil Rights' (OCR)
                   guidance when determining what language access services to offer; (2) determined the extent to
                   which Medicare plans offered language access services consistent with the Office of Minority
                   Health's (OMH) Culturally and Linguistically Appropriate Services in Health Care (CLAS)
                   standards on language access services; (3) determined the extent to which Medicare plans
                   encountered benefits. including savings. and obstacles to providing language access services and
                   (4) described costs associated with providing language access services.

                   It is our goal at the Centers for Medicare & Medicaid Services (CMS) to provide clear, accurate,
                   and timely information regarding Title VI prohibition against National Origin Discrimination
                   affecting Limited English Proficient persons. The CMS concurs with the recommendation stated
                   in the report.

                   Thank you for the opportunity to review the report and provide feedback on this OIG report.




 OEI·05·10·00051           GUIDANCE AND STANDARDS ON LANGUAGE ACCESS SERVICES:       MEDICARE PLANS                              36
   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Ann Maxwell, Regional
                  Inspector General for Evaluation and Inspections in the Chicago
                  regional office, and Thomas F. Komaniecki, Deputy Regional Inspector
                  General.

                  Mark Stiglitz served as the team leader for this study and Meghan
                  Kearns served as the project lead. Other principal Office of Evaluation
                  and Inspections staff from the Chicago regional office who contributed
                  to the report include Melissa Baker, Benjamin Dieterich, Nicole Hrycyk,
                  Ericka Kilburn, and Margarita Rodriguez; central office staff who
                  contributed include Heather Barton and Kevin Farber.




OEI-05-10-00051   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE   PLANS   37
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
